TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Statistical Portrayal of the Criminal
                    Investigation Function’s Enforcement
                   Activities From Fiscal Year 2000 Through
                                Fiscal Year 2006



                                           June 6, 2007

                              Reference Number: 2007-10-083




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              June 6, 2007


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Statistical Portrayal of the Criminal Investigation
                             Function’s Enforcement Activities From Fiscal Year 2000 Through
                             Fiscal Year 2006 (Audit # 200710025)

 This report presents the results of our review of statistical information that reflects activities of
 the Criminal Investigation function (the function). The overall objective of this review was to
 provide statistical information and trend analyses of the function’s enforcement activities for
 Fiscal Years (FY) 2000 through 2006. We initiated this review as part of the Treasury Inspector
 General for Tax Administration’s FY 2007 Annual Audit Plan.

 Impact on the Taxpayer
 During this annual review, we analyzed information from the function’s management
 information system reports to determine the trends and changes in the major areas of criminal
 enforcement. Although some indicators showed an increase in FY 2006, several key
 performance measures declined, such as the number of criminal investigations initiated or in
 process and the number of subjects convicted of a crime. There is a need for continued progress
 in enforcement of criminal tax and tax-related violations to enhance voluntary compliance and
 foster confidence in the integrity of the tax system.
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



Synopsis
We previously reported that the function showed improvements in tax-related enforcement from
FYs 2004 to 2005.1 For example, the total numbers of subject investigations2 initiated, subjects
convicted, and subjects sentenced had increased and the percentage of direct investigative time
had increased slightly.
In FY 2006, although the percentage of tax-related subject investigations initiated and the
percentage of direct investigative time applied to tax-related subject investigations increased,
several key performance measures showed decreases from FY 2005. For example, the number
of subject investigations initiated decreased 8.5 percent, the number of subject investigations in
open inventory decreased 5.8 percent, the number of subject investigations referred for
prosecution decreased 4.9 percent, the number of subjects convicted of a crime decreased
6.1 percent, and the number of subjects sentenced for a crime decreased 3.6 percent.
In addition, the pipeline inventory was at a 6-year high of 3,943 subject investigations, which is
almost the same as the number of subject investigations open in inventory. This resulted in the
function spending more direct investigative time to prepare these investigations for adjudication
instead of initiating new investigations. Concerned with the continued increases in pipeline
inventory, the function’s Office of Planning and Strategy completed a review of the pipeline
inventory. The study determined the pipeline inventory for FYs 2002 through 2005 increased
over 40 percent and the United States Attorney’s Offices’ operational priorities were not
optimally aligned with the function’s priorities. The Chief, Criminal Investigation, requested
that we evaluate whether limited resources at the United States Attorney’s Offices will continue
to affect the function’s pipeline inventory. We have scheduled that review to commence in
FY 2007.
In addition, increasing overall special agent staffing remains a challenge as the function
continues to lose experienced special agents to attrition faster than it is replacing them. We
raised concerns in last year’s report that this staffing trend might adversely affect the current
levels of and improvements in productivity the function had experienced in FY 2005.3 We
believe the flat staffing pattern has partially attributed to the decreases reported for several of the
FY 2006 yearend performance measures.




1
  For more information, see Appendix IV, report 3.
2
  See Appendix V for a glossary of terms used in this report.
3
  For more information, see Appendix IV, report 3.
                                                                                                      2
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2006



Recommendations
We made no recommendations in this report. However, key Criminal Investigation function
management officials reviewed the report prior to its issuance and provided written comments to
add perspective on areas such as the function’s legal source program and direct investigative
time relating to narcotics-related investigations. In addition, the response requested we remove
several paragraphs that the function did not believe were relevant to the FY 2006 statistical
accomplishments. However, we disagree and believe these areas give perspective to the reader
on Congressional concerns in areas that can affect the function’s future accomplishments in the
Questionable Refund Program area. Management’s complete response to the discussion draft
report is included as Appendix VII.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report information. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Program), at (202) 622-8500.




                                                                                                3
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2006




                                            Table of Contents

Background ..........................................................................................................Page 1
Results of Review ...............................................................................................Page 3
          Several Key Performance Measures Declined in Fiscal Year 2006 ........... Page 3
          Challenges Remain to Complete Investigations and Reduce
          Pipeline Inventory.........................................................................................Page 4
          Declining Trends Related to Legal Source Income Tax and
          Tax-Related Investigations Cause Concern ..................................................Page 6
          Challenges Remain to Increase the Number of Special Agents ...................Page 8
          Congressional Concerns About the Criminal Investigation Function’s
          Questionable Refund Program Continue ......................................................Page 9
          Investigations Initiated From External Sources Increased Slightly..............Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Related Treasury Inspector General for Tax
          Administration Audit Reports.......................................................................Page 16
          Appendix V – Glossary of Terms…………………. ....................................Page 17
          Appendix VI – Detailed Charts of Statistical Information ...........................Page 20
          Appendix VII – Management’s Response to the
          Discussion Draft Report................................................................................Page 39
         Statistical Portrayal of the Criminal Investigation Function’s
           Enforcement Activities From Fiscal Year 2000 Through
                                Fiscal Year 2006




                       Abbreviations

BPR              Business Performance Review
CIMIS            Criminal Investigation Management Information System
FY               Fiscal Year
IRS              Internal Revenue Service
U.S.C.           United States Code
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006




                                            Background

In 1999, overall Internal Revenue Service (IRS) enforcement activities began to erode, and a
survey conducted in 2003 indicated 17 percent of the survey population believed it was
acceptable to cheat on their taxes. Since then, the IRS Commissioner has emphasized the
importance and role of tax enforcement in overall tax compliance by recognizing the need to
enhance levels of enforcement activity to provide a proper balance between service and
enforcement. A 2006 Taxpayer Attitude Survey conducted by the IRS Oversight Board1
indicated there is now stronger taxpayer support for compliance. Approximately 86 percent of
those participating in the Survey agreed that it is “not at all” acceptable to cheat on their income
taxes. In addition, 63 percent were in favor of additional funding so the IRS can enforce the tax
laws and ensure taxpayers pay what they owe.
The IRS Strategic Plan for Fiscal Years (FY) 2005 to 2009 provides that enforcing tax
compliance, both civilly and criminally, is critical to maintaining the American taxpayers’
expectation that the tax system is fair. It also outlines several objectives to meet the goal of
enhanced enforcement, including discouraging and deterring noncompliance with emphasis on
corrosive activity by corporations, high-income individual taxpayers, and other contributors to
the tax gap (the difference between taxes owed and paid).
The Criminal Investigation function (the function) has the authority to investigate criminal tax
violations. The vigorous enforcement of criminal statutes within the function’s jurisdiction is an
integral component of the IRS’ efforts to enhance voluntary compliance and foster confidence in
the fairness and integrity of the tax system.
Over the last few decades, Congress and the Department of the Treasury have expanded the
function’s jurisdiction to also cover offenses under money-laundering and currency-reporting
statutes.2 Accordingly, the function has been investigating tax violations involving both legal
and illegal sources of income, including those involving organized crime and narcotics.
In April 1999, Judge William Webster issued a report3 on his review of the function’s operations
and concluded the function had drifted away from its primary mission of investigating criminal
violations of the Internal Revenue Code (United States Code [U.S.C.] Title 26). Judge Webster
recommended the function refocus on its primary mission of investigating criminal violations of
the internal revenue laws.

1
  See Appendix V for a glossary of terms used in this report.
2
  United States Code (U.S.C.) Title 18 Sections (§§) 1956 and 1957 (2004) and U.S.C. Title 31 (Money and
Finance) sections.
3
  Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.
                                                                                                          Page 1
                       Statistical Portrayal of the Criminal Investigation Function’s
                         Enforcement Activities From Fiscal Year 2000 Through
                                              Fiscal Year 2006



The function addressed many of the Webster Report concerns by creating a revised mission
statement, developing a compliance strategy designed to guide the function to develop and
investigate cases that foster confidence in the tax system, reducing the resources placed on
narcotics-related investigations, publicizing the results of its investigations, and conducting an
empirical study to determine the effect investigations have on voluntary compliance. Function
executives continue to emphasize the importance of developing and investigating those cases that
have the greatest effect on tax administration, whether the sources of income in those
investigations are derived from legal or illegal industries.
We initiated this review as part of the Treasury Inspector General for Tax Administration’s
FY 2007 Annual Audit Plan. While our trend analyses covered FYs 2000 through 2006, our
report concentrates on providing a perspective for the 2 most current fiscal years.
Our data analyses were performed in the Treasury Inspector General for Tax Administration
Chicago, Illinois, office during the period January 2007 through March 2007 using data
accumulated by the function. The audit was conducted in accordance with Government Auditing
Standards. However, we relied on information accumulated by the function and did not verify
its accuracy. Much of the data in this report were updated from our prior report on criminal
enforcement trends.4 Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II. Detailed
charts and tables referred to in the body of the report are included in Appendix VI.




4
    For more information, see Appendix IV, report 3.
                                                                                           Page 2
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006




                                      Results of Review

Several Key Performance Measures Declined in Fiscal Year 2006
We previously reported the function had continued to show improvements from FY 2004.5 For
example, the total numbers of subject investigations initiated, subjects convicted, and subjects
sentenced had increased and the percentage of direct investigative time had increased slightly.
Although the percentage of tax-related subject investigations initiated and the percentage of
direct investigative time applied to tax-related subject investigations increased in FY 2006,6
several key performance measures showed decreases from FY 2005. For example, the number
of subject investigations initiated decreased 8.5 percent, the number of subject investigations in
open inventory decreased 5.8 percent, the number of subject investigations referred for
prosecution decreased 4.9 percent, the number of subjects convicted of a crime decreased
6.1 percent, and the number of subjects sentenced for a crime decreased 3.6 percent.7 In
addition, the pipeline inventory is at a 6-year high of 3,943 subject investigations, which is
almost the same as the number of subject investigations open in inventory.8
Further, the Department of Justice acceptance rate decreased 4.1 points from FY 2005, to
92.2 percent. Similarly, the United States Attorney’s Offices’ acceptance rate decreased
3.9 percent from FY 2005.
The function attributed the decreases in subject investigations initiated, subject investigations
referred for prosecution, and subjects convicted of a crime to planned reductions in resources
applied to narcotics-related investigations, increased time applied to pipeline investigations, and
continued emphasis on complex tax and tax-related investigations. In addition, function
management cited a Washington Post article about severe staffing shortages at the United States
Attorney’s Offices and indicated this presents a significant challenge to the function in reducing
its pipeline inventory. This area of concern has been brought to the attention of the Attorney
General by the Honorable Henry A. Waxman (D-California) and the Honorable John Conyers
(D-Michigan), who, in a letter dated July 24, 2006, stated that the lack of staff and resources
force Federal Government prosecutors to forego prosecutions in some important investigations
and to reach plea bargains in others. In its FY 2008 budget request, the Department of Justice
requested $5.2 million for the Tax Division to enhance “Operation Continued Follow-Through,”
a tax law enforcement initiative that supports the President’s focus on reducing tax fraud. We

5
  For more information, see Appendix IV, report 3.
6
  See Appendix VI, Figures 3 and 5.
7
  See Appendix VI, Figures 4, 11, 15, and 23.
8
  See Appendix VI, Figure 22.
                                                                                             Page 3
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



believe this additional funding, if approved, might alleviate some of the delays the IRS is
experiencing with the Department of Justice.

Challenges Remain to Complete Investigations and Reduce Pipeline
Inventory
The function projected it would complete 3,945 subject investigations during FY 2006. It
actually completed 4,157 subject investigations, exceeding the FY 2006 performance goal
outlined in the IRS FY 2008 Congressional Budget Submission. Of these 4,157 completed
investigations, 65.4 percent were referred for prosecution, a 4.9 percent decrease in the number
of investigations referred for FY 2005.9 The number of subjects convicted of a crime was 2,019,
which is 11 percent below the FY 2006 performance plan number (2,260) and a decrease of
6.1 percent from FY 2005. In addition, the number of subjects sentenced decreased 3.6 percent
from FY 2005 (from 2,095 to 2,020).10
In 2003, the IRS Commissioner raised concerns about the length of time it takes to recommend
an investigation for prosecution. Since then, the function has emphasized reduction of
cycle time. The function’s Office of Planning and Strategy conducted a study to determine the
desired cycle time range and established a benchmark figure for legal source income tax and
illegal source income investigation completions (415 calendar days to 425 calendar days)
because these investigations closely align with the function’s mission and measure investigative
efficiency.
In FY 2006, the function reported average elapsed days for legal source income tax and illegal
source income investigation completions at 436.6 calendar days. This was 2.7 percent above the
benchmark range; yet, it was 5.7 percent below the FY 2005 average of 463.2 calendar days.
The national average of elapsed days to recommend an investigation for prosecution and to
discontinue an investigation showed slight improvements from FY 2005 to FY 2006.11
The function’s FY 2007 Annual Business Plan includes a business strategy to “Improve
Efficiency and Reduce Elapsed Time on Criminal Subject Investigations.” The function plans to
accomplish this through appropriate management oversight and direction to maintain optimum
workload levels and ensure all investigations progress appropriately. We are encouraged by
management’s efforts to reduce elapsed days to complete an investigation and believe their
constant oversight should result in continued improvements in this area.




9
  See Appendix VI, Figure 15.
10
   See Appendix VI, Figure 23.
11
   See Appendix VI, Figure 16.
                                                                                              Page 4
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



Pipeline inventory continues to increase
The pipeline inventory continues an upward trend. The FY 2006 inventory was the highest in
the last 6 years with 3,943 subject investigations, a 2.5 percent increase over FY 2005. The ratio
of pipeline inventory to open subject criminal investigations had dramatically increased to
97.7 percent as of September 30, 2006. This is an increase from the FY 2002 level of
62.2 percent.12
Concerned with the continued increases in pipeline inventory, the function’s Office of Planning
and Strategy completed a review of the pipeline inventory and determined the pipeline inventory
for FYs 2002 through 2005 increased over 40 percent. During that period, the number of legal
source income tax investigations in the pipeline increased 56 percent, while illegal source
income and narcotics-related pipeline inventory increased 51 percent and 12 percent,
respectively.13 By the end of FY 2005, the function’s pipeline inventory comprised 47 percent of
total14 subject criminal investigations and had used 19 percent of the function’s direct
investigative time. Furthermore, this study concluded the United States Attorney’s Offices’
operational priorities were not optimally aligned with the function’s priorities.
According to data reported in the Business Performance Review (BPR) document for FY 2006,
the number of investigations categorized for the Department of Justice Tax Division increased at
a slower rate between FYs 2002 and 2006 than the number of investigations categorized as
preindictment or postindictment at the Department of Justice. For example, the Tax Division’s
inventory increased from 345 investigations in FY 2002 to 366 investigations in FY 2006,
whereas the United States Attorney’s Offices’ preindictment inventory increased from
937 investigations in FY 2002 to 1,516 investigations in FY 2006. Further, the postindictment
inventory increased from 1,451 investigations to 2,065 investigations during the same period.
The amount of direct investigative time applied to the pipeline inventory has increased
7 percentage points in the last 5 fiscal years, from 14.5 percent to 21.5 percent. The function
indicated the timely resolution of these pipeline investigations will remain a challenge. We are
still concerned that a continuing expansion of the pipeline inventory will affect future
productivity levels because fewer new investigations will be initiated.
The Chief, Criminal Investigation, requested that we evaluate whether limited resources at the
United States Attorney’s Offices will continue to affect the function’s pipeline inventory. We
had previously discussed this area with the Deputy Chief, Criminal Investigation, and have
included this review in our FY 2007 audit plan.15


12
   See Appendix VI, Figure 11.
13
   See Appendix VI, Figure 22.
14
   Total subject investigations include subject investigations currently under active investigation and those referred
for prosecution and adjudication (pipeline).
15
   Coordination With the Department of Justice on Pipeline Inventory (Audit # 200710026).
                                                                                                                Page 5
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



Declining Trends Related to Legal Source Income Tax and
Tax-Related Investigations Cause Concern
The function’s Annual Business Plans have consistently described legal source income tax
investigations as a top investigative priority, and we believe these investigations are an important
component of all tax-related investigations. We previously challenged the function’s efforts to
show progress toward increasing the level of legal source income tax investigations, despite its
articulation of a focus on these types of investigations in its strategic documents.16 Although we
could not conclusively determine whether the function was conducting enough legal source
income tax investigations or to what extent it can or should increase the number, we identified
several areas in which the function could make improvements to the legal source income tax
investigative program and more effectively measure the program’s impact on tax compliance.
In FY 2006, the percentage of direct investigative time spent on legal source income tax and
tax-related investigations was at a 7-year high, increasing 6.4 percentage points and
8.7 percentage points, respectively, since FY 2000. During FY 2006, the function spent
67.1 percent of its time investigating tax-related cases and 48.2 percent of its time on legal
source income tax investigations.17
Although the function reported it was spending more time investigating legal source income tax
and tax-related investigations, overall investigations initiated decreased, thus affecting the
number of legal source income tax and tax-related investigations initiated during FY 2006. For
example, the number of legal source income tax investigations initiated decreased 10 percent
(from 1,693 in FY 2005 to 1,524 in FY 2006) yet was higher than that reported in FY 2004.
Likewise, the number of tax-related investigations initiated decreased 7.1 percent during the
same period, yet tax-related initiations were higher than what was reported in FY 2004.18 As
previously mentioned, the function indicated the lower numbers of initiations were a result of its
planned reductions in resources applied to narcotics-related investigations, increased time
applied to pipeline investigations, and continued emphasis on complex tax and tax-related
investigations, which have the greatest impact on tax compliance.
In addition, the total open subject investigation inventory decreased from FY 2005, as did the
number of legal source income tax and tax-related investigations in open inventory. The
function had 2,121 legal source income tax investigations in open subject investigation inventory
at the end of FY 2005. This decreased 5.4 percent to 2,006 in FY 2006; however, there was a
slight increase in the percentage of total open inventory that was legal source.19 In addition, the
number of tax-related investigations in open inventory decreased 3.8 percent, from 3,258 in


16
   For more information, see Appendix IV, report 1.
17
   See Appendix VI, Figure 3.
18
   See Appendix VI, Figures 6 and 5.
19
   See Appendix VI, Figure 13.
                                                                                             Page 6
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



FY 2005 to 3,134 in FY 2006. However, the percentage of total open inventory that was
tax-related increased 1.6 percentage points during this time.20
Case completions also showed declining statistics from FY 2005. The numbers of legal source
income tax and tax-related investigations referred for prosecution decreased 12.3 percent and
7.1 percent, respectively.21 The function attributed these decreases to the steady increase in
direct investigative time applied to pipeline inventory and to flat staffing levels.
Further, while the number of subjects convicted of a legal source income tax crime decreased
9.6 percent from FY 2005, the number of subjects sentenced for a legal source income tax crime
increased slightly during this time.22 Although the number of subjects sentenced for a tax-related
crime decreased during FY 2006, the percentage of tax-related sentences is at a 7-year high of
49.3 percent.23
We are concerned that the pending FY 2008 budget initiative to increase the direct investigative
time on narcotics-related cases, to a range of 12 percent to 14 percent, may continue to affect the
function’s ability to investigate legal source income tax and tax-related crimes. While this
range is lower than those reported by the function in the years following issuance of the
Webster Report, it is an increase from the overall direct investigative time of 9.6 percent reported
in FY 2006. According to the BPR document for FY 2006, the function will increase
narcotics-related direct investigative time for FY 2007 by redirecting resources from the
nontax-related portion of illegal source income investigations. If the pending proposal for
FY 2008 is approved, we believe the function should continue to look for opportunities to
redirect resources from the nontax-related categories to minimize any impact on the legal source
income tax and tax-related investigations program.

Tax compliance and publicity
Research suggests that higher levels of criminal sentences lead to higher tax compliance. The
average number of months a subject is incarcerated has increased since FY 2000. The
percentage increase in the number of months a subject is incarcerated for legal source income tax
investigations rose 13.3 percent between FYs 2000 and FY 2006. During the same period,
incarceration time increased 37 percent (from an average of 27 months to 37 months) for illegal
source income investigations and 23.7 percent (from 76 months to 94 months) for
narcotics-related investigations.24
In an effort to ensure voluntary compliance, the function changed its philosophy to allow for
more publicity of its tax investigations. It continues to increase the publicity on tax prosecutions,

20
   See Appendix VI, Figure 12.
21
   See Appendix VI, Figures 18 and 17.
22
   See Appendix VI, Figures 24 and 27.
23
   See Appendix VI, Figure 26.
24
   See Appendix VI, Figure 29.
                                                                                              Page 7
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



and the overall publicity rate of 75.6 percent for prosecutions in FY 2006 was an all time high.
The 81.3 percent publicity rate for legal source income tax investigations is also an all time
high.25 This increased exposure indicates the function is receiving media attention and sending
the message to taxpayers that violations of the Internal Revenue Code and related financial
crimes are being investigated and prosecuted.

Challenges Remain to Increase the Number of Special Agents
While total special agent staffing26 increased 2.6 percent between FYs 2000 and 2006, the
number of field office special agents was near the same level in FY 2006 as in FY 2000.
According to staffing data provided by the function, 189 positions were classified as special
agent recruits in training in FY 2005. Some of these recruits graduated during FY 2006,
resulting in an increase in the number of field special agents from 2,416 in FY 2005 to
2,511 in FY 2006.27
While there was growth in the number of field special agents, increasing special agent staffing
remains a challenge as the function continues to lose experienced special agents to attrition faster
than it can replace them. According to its most recent estimates, the function’s planned hiring
will not offset the FY 2006 attrition of 142 agents or the FY 2007 expected attrition of
approximately 150 agents.
Last year28 we expressed our concern that the decrease in staffing may adversely affect the
current levels of and improvements in productivity the function experienced in FY 2005. We
believe the flat staffing patterns have partially attributed to the lower numbers of subject
investigations initiated, subject investigations per special agent, investigations referred for
prosecution, and subjects convicted of a crime.

Trends related to the number of investigations per special agent
The function uses the average inventory of subject investigations per special agent and the
average total inventory per special agent as business results measures. The average inventory
calculation includes only open subject investigations, whereas the total inventory calculation
includes primary investigations, open subject investigations, and pipeline subject investigations.
In FY 2004, the average inventory of subject investigations per special agent was 1.84. This
increased to 1.94 in FY 2005 but decreased to 1.76 in FY 2006. In addition, the total inventory



25
   See Appendix VI, Figure 30.
26
   Includes new recruits, part-time special agents, field and Headquarters office managers and program analysts, and
Lead Development Center and Fraud Detection Center special agents.
27
   Appendix VI, Figure 1.
28
   For more information, see Appendix IV, report 3.
                                                                                                            Page 8
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



per special agent, which we believe is a better indicator of a special agent’s workload, decreased
from 5.19 percent in FY 2005 to 4.77 percent in FY 2006.29
As previously stated, function management indicated the planned reductions in resources applied
to narcotics-related investigations, increased direct investigative time applied to pipeline
investigations, and increased emphasis on complex tax and tax-related investigations resulted in
the lower numbers of open subject criminal investigations per agent.

Congressional Concerns About the Criminal Investigation Function’s
Questionable Refund Program Continue
Refund fraud continues to grow. Between Processing Years 2003 and 2005, the number of
fraudulent30 or potentially fraudulent returns detected increased 36.2 percent and the total amount
of refunds stopped increased 53.8 percent.31 As part of its continuing efforts to increase
enforcement and combat refund fraud, the function has increased staffing dedicated to refund
fraud by 33.1 percent since FY 2003.
However, the statistics for Processing Year 2006 reflect the recent problems the function has
experienced with the Questionable Refund Program. In Processing Year 2005, the function
identified approximately $511 million in fraudulent or potentially fraudulent refunds, compared
to approximately $274 million in Processing Year 2006. In addition, the function actually
stopped 53.4 percent fewer fraudulent dollars, stopping $191 million in Processing Year 2006
compared to about $410 million in Processing Year 2005. However, even with the unavailability
of the Electronic Fraud Detection System for all of Processing Year 2006, 69.6 percent of the
dollars associated with identified fraudulent refunds were eventually stopped, compared to
80.1 percent in Processing Year 2005.32
In our opinion, these differences were largely due to the unavailability of the Electronic Fraud
Detection System.33 As expected, the number of fraudulent returns detected also significantly
decreased (60.4 percent) from 132,054 in Processing Year 2005 to 52,338 in Processing
Year 2006.34
During the past couple of years, Congressional concerns with the function’s Questionable
Refund Program have increased. The concerns began with the number of fraudulent prisoner



29
   See Appendix VI, Figure 10.
30
   The function recently advised us it had begun to refer to these returns as “potentially fraudulent” because an actual
fraud determination could not be made without the taxpayer’s explanation.
31
   See Appendix VI, Figures 31 and 32.
32
   See Appendix VI, Figure 32.
33
   For more information, see Appendix IV, report 4.
34
   See Appendix VI, Figure 31.
                                                                                                               Page 9
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



refunds being issued; more recently, they have related to the operation of the Electronic Fraud
Detection System and the Questionable Refund Program process of freezing taxpayer accounts.
In April 2005, at the request of the House Ways and Means Subcommittee on Oversight, we
conducted a limited-scope review35 concerning refund fraud committed by individuals who are
incarcerated in Federal and State prisons, which has grown significantly in recent years. We
reported that inaccurate and missing information from the prisoner data file prevented the IRS
from detecting all fraudulent refund returns filed by prisoners. In addition, Internal Revenue
Code § 610336 generally prohibited the IRS from sharing Federal tax information with other
agencies such as State prison authorities, except under limited circumstances. We made no
recommendations in that report; however, the President’s FY 2008 Budget included a legislative
proposal to permit the IRS to disclose tax return information to prison officials.
In January 2006, the National Taxpayer Advocate issued the 2005 Annual Report to Congress
reporting significant problems with the Questionable Refund Program. Shortly thereafter, the
Senate Finance Committee and the House Ways and Means Oversight Subcommittee sent letters
to the Secretary of the Treasury and the IRS Commissioner expressing concern that taxpayers
whose refunds were frozen were not always notified. Congress requested a review of the
Questionable Refund Program, and on January 24, 2006, the IRS Commissioner announced he
had initiated an internal review. We included the IRS’ resulting changes to the Questionable
Refund Program in our audit and issued a report37 indicating that, while we are encouraged by
the IRS’ actions to address stakeholder concerns and restore balance between taxpayer rights and
effective administration of the tax laws, we are concerned some of the changes will not stop
millions of dollars of potentially fraudulent refunds from being issued. IRS management agreed
with three of our seven recommendations, partially agreed with one recommendation, and neither
agreed nor disagreed with three other recommendations. For the three agreed-to
recommendations, IRS management plans to obtain more current time periods for completing
verification; to collaborate with the Department of Justice on referral criteria; and, through a task
force, to consider revising review procedures. For the other four recommendations, the IRS
proposed different types of actions and plans to evaluate the results from the 2007 Questionable
Refund Program, make recommendations on any adjustments to procedures for the 2008 Filing
Season, and work with relevant parties to discuss initiating a legislative proposal.

Investigations Initiated From External Sources Increased Slightly
The function initiates investigations from many different sources, both within and outside the
IRS. The primary internal sources include fraud referrals from the Compliance offices and
investigations developed by the Criminal Investigation function itself through the Questionable

35
   For more information, see Appendix IV, report 2.
36
   Internal Revenue Code § 6103 (2006).
37
   For more information, see Appendix IV, report 5.
                                                                                            Page 10
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



Refund and Return Preparer Programs. The primary external sources of investigations include
the United States Attorney’s Offices and other Government agencies, both Federal and State. In
addition, the function initiates investigations based on information received from public sources,
including the media and informants.
During FY 2006, about 53.4 percent of the 3,907 subject investigations initiated came from the
United States Attorney’s Offices or other Government agencies. This was a slight increase from
53.1 percent in FY 2005. In contrast, during FY 2006, about 35.2 percent of subject
investigations initiated originated from within the IRS. This is a decline from the 36.2 percent
reported in FY 2005 but is still an increase from 31.6 percent and 30.1 percent reported in
FYs 2003 and 2004, respectively. Further, in FY 2006, the number of subject investigations
initiated from a public source increased to 11.5 percent of the total investigations initiated, from
10.7 percent in FY 2005.38
The function’s FY 2007 Annual Business Plan states it will maintain its investigative resources
applied to quality legal source income tax investigations by continuing to work closely with the
Compliance offices and will pursue significant investigations involving illegal source income
and other financial crimes that adversely affect tax administration. We continue to believe that,
because investigations generated from internal sources are more likely to be legal source income
tax investigations, the function should remain vigilant when evaluating whether the level of cases
initiated from sources external to the IRS maintains a proper balance with the stated priorities.

Fraud referral program successes
In response to our prior report on the legal source income tax program,39 the function committed
to taking several steps to enhance the fraud referral program, such as establishing fraud referral
coordinator positions in each field office, fostering relationships with other IRS operating
divisions, and incorporating language into the managers’ commitments. As a result of these
changes, the function succeeded in accomplishing its FY 2006 compliance strategy to strengthen
the fraud referral program. While the number of fraud referrals received in FY 2006 decreased
3.5 percent from FY 2005, the acceptance rate increased 2.7 percentage points in FY 2006,
indicating the IRS Compliance offices are improving the quality of their criminal fraud referrals.
The FY 2006 acceptance rate of 71.5 percent was the highest in the last 7 years. The rate of
acceptance has increased 20.7 percentage points since FY 2000.40
The fraud referral program remains a high priority with the function, which continues to work
with the Small Business/Self-Employed Division in assessing the program’s effectiveness.41 A


38
   See Appendix VI, Figure 8.
39
   For more information, see Appendix IV, report 1.
40
   See Appendix VI, Figure 9.
41
   The Office of Audit Small Business Programs unit is conducting an audit to evaluate the Examination function’s
fraud program and referrals to the Criminal Investigation function (Audit # 200630009).
                                                                                                         Page 11
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2006



critical issue facing the program is the inconsistency among the various United States Attorney’s
Offices in accepting Title 26 investigations for prosecution. The function is currently conducting
a study to determine whether all the United States Attorney’s Offices have consistent policies
regarding Title 26 prosecutions. The goal of this study is to identify inconsistencies and assist
the Small Business/Self-Employed Division in modifying local referral criteria to conform to the
prosecution thresholds of the United States Attorney’s Offices.
Because fraud referrals remain a viable and important source of legal source income tax
investigations, we are encouraged by the recent results demonstrated by the fraud referral
program. We believe the function and the Compliance offices should continue to emphasize the
importance of these types of investigations as they relate to tax administration and the IRS’
efforts to improve voluntary compliance.




                                                                                          Page 12
                        Statistical Portrayal of the Criminal Investigation Function’s
                          Enforcement Activities From Fiscal Year 2000 Through
                                               Fiscal Year 2006



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the Criminal Investigation function’s enforcement activities for FYs 2000 through 2006.
To accomplish our objective, we reviewed IRS data publications and function management
information to analyze data and identify trends. We relied on information accumulated by the
IRS and the function in established reports and the function’s management information system
and did not verify its accuracy. The major issues we focused on included:
           •    Special Agent1 Staffing.
           •    Investigation Initiations.
           •    Open Investigations.
           •    Pipeline Investigations.
           •    Investigation Closures.
           •    Investigations Referred for Prosecution.
           •    Subsequent Legal Actions.
           •    Compliance Strategy Programs.




1
    See Appendix V for a glossary of terms used in this report.
                                                                                           Page 13
                 Statistical Portrayal of the Criminal Investigation Function’s
                   Enforcement Activities From Fiscal Year 2000 Through
                                        Fiscal Year 2006



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Janice A. Murphy, Lead Auditor
Todd M. Anderson, Senior Auditor




                                                                                    Page 14
                 Statistical Portrayal of the Criminal Investigation Function’s
                   Enforcement Activities From Fiscal Year 2000 Through
                                        Fiscal Year 2006



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 15
              Statistical Portrayal of the Criminal Investigation Function’s
                Enforcement Activities From Fiscal Year 2000 Through
                                     Fiscal Year 2006



                                                                            Appendix IV

     Related Treasury Inspector General for Tax
            Administration Audit Reports

1. The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax
   Cases; However, Challenges Remain (Reference Number 2005-10-054, dated
   March 2005).
2. The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in
   Fraudulent Refunds Paid to Prisoners (Reference Number 2005-10-164, dated
   September 2005).
3. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2005 (Reference Number 2006-10-074,
   dated May 2006).
4. The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns
   and Refunds Not Being Identified (Reference Number 2006-20-108, dated
   August 9, 2006).
5. Actions Have Been Taken to Address Deficiencies in the Questionable Refund Program;
   However, Many Concerns Remain, With Millions of Dollars at Risk (Reference
   Number 2007-10-076, dated May 31, 2007).




                                                                                     Page 16
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2006



                                                                                  Appendix V

                                Glossary of Terms

Business Performance Review – Quarterly, the Criminal Investigation function (the function)
reports on its performance measures, business results, employee and customer satisfaction, and
other items of importance to the function.
Compliance Strategy – The function strategy comprised of three interdependent program areas:
Legal Source Tax Crimes, Illegal Source Financial Crimes, and Narcotics-Related Financial
Crimes.
Criminal Investigation Management Information System (CIMIS) – A database that tracks
the status and progress of criminal investigations and the time expended by special agents.
Cycle Time – Elapsed calendar days on completed investigations.
Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.
Discontinued Investigation – A subject investigation that resulted in a determination that there
was no prosecution potential.
Elapsed Days – The number of calendar days between the initiation of a subject investigation
and another date, such as the date the investigation was discontinued or referred for prosecution.
Electronic Fraud Detection System – The primary computer system used by the function that
greatly enhances its ability to identify and stop fraudulent filings.
Field Special Agent – A special agent in 1 of the function’s 29 field offices.
Filing Season – The period from January through mid-April when most individual income tax
returns are filed.
Fraud Detection Center – The function organization responsible for identifying and detecting
refund fraud, preventing the issuance of false refunds, and providing support for the function
field offices.
Grand Jury Investigation – An investigation conducted through use of a Federal grand jury to
determine if a subject should be charged with a crime. Use of the Federal grand jury to
investigate the potential crime(s) may be initiated by the function or by an attorney for the
Federal Government.




                                                                                           Page 17
                   Statistical Portrayal of the Criminal Investigation Function’s
                     Enforcement Activities From Fiscal Year 2000 Through
                                          Fiscal Year 2006



Illegal Source Financial Crimes – Those crimes involving illegally earned income. They
include crimes involving money laundering, U.S.C. Title 18 Sections (§§) 1956 and 1957,
sections of U.S.C. Title 31, and U.S.C. Title 26 violations investigated in conjunction with other
agencies.
Inventory per Agent – The number of open subject investigations divided by the number of
field special agents whose salary grade level is 13 or below and who have various position
descriptions, including those of coordinator and reviewer.
IRS Data Book – Provides information on activities conducted by the IRS such as taxes
collected, enforcement, taxpayer assistance, budget, workforce, and other selected activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws and to provide experience, independence, and stability to the IRS so
it may move forward in a cogent, focused direction.
Lead Development Center – Coordinates local and national projects initiated to identify
specific areas/industries of noncompliance. It is the focal point for the fraud referral program,
coordinating all referrals to and from the operating divisions and providing fraud awareness
training to operating division employees.
Legal Source Tax Crimes – Those crimes involving legal industries and occupations and
legally earned income.
Narcotics-Related Financial Crimes – Those crimes involving tax and money laundering that
are related to narcotics and drug trafficking.
National Taxpayer Advocate – An independent organization within the IRS to help taxpayers
resolve problems with the IRS and recommend changes that will prevent the problems.
Pipeline Inventory – Investigations in which the function has made a prosecution
recommendation but for which the subsequent legal process has not been completed. Function
personnel may still be actively involved with pipeline cases, to assist with trial preparation or to
testify as witnesses.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the internal revenue laws and related financial crimes.
Processing Year – Refers to the year in which taxpayers file their tax returns with the IRS.
Generally, returns for Tax Year 2005 were processed during Calendar Year 2006, although
returns for older years were also processed in 2006.
Questionable Refund Program – A nationwide, multifunctional program designed to identify
fraudulent returns, stop the payment of fraudulent refunds, and refer identified fraudulent refund
schemes to the function field offices.

                                                                                             Page 18
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2006



Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice or a United States Attorney’s Office.
Return Preparer Program – A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The
clients may or may not have knowledge of the false claims.
Special Agent – A function law enforcement employee who investigates potential criminal
violations of the internal revenue laws and related financial crimes.
Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the IRS and having prosecution potential.
Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982, or 984.
Tax-Related Violation – A violation involving Title 26, Title 33 sections, or one of the
following Title 18 sections: § 286, § 287, § 371 or § 514 associated with a Title 26 violation or
§ 371 associated with a Title 26 and a Title 31 violation.
Title 18 – U.S.C. Title 18 (Crimes and Criminal Procedure). Various sections of Title 18 apply
to violations that are within the jurisdiction of the function. Examples include § 286, Conspiracy
to Defraud the Government with Respect to Claims; § 287, False, Fictitious, or Fraudulent
Claims; § 371, Conspiracy to Commit Offense or to Defraud United States; and §§ 1956 and
1957, Laundering of Monetary Instruments and Engaging in Monetary Transactions in Property
Derived from Specified Unlawful Activity. The most common section investigated under this
statute is money laundering.
Title 26 – U.S.C. Title 26 (Internal Revenue Code).
Title 31 – U.S.C. Title 31 (Money and Finance). Several sections of Title 31 apply to violations
that are within the jurisdiction of the function. Examples include § 5322, Criminal Penalties (for
willful violations of Title 31 sections), and § 5324, Structuring Transactions to Evade Reporting
Requirement Prohibited.
Title 33 – U.S.C. Title 33 (Taxation and Finance – Virgin Islands). Several sections of Title 33
apply to violations that are within the jurisdiction of the function. Examples include § 1521,
Attempt to Evade or Defeat Tax; § 1522, Conspiracy to Evade or Defeat Tax; and § 1523,
Willful Failure to Collect or Pay Over Tax.




                                                                                          Page 19
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



                                                                                                            Appendix VI

            Detailed Charts of Statistical Information

Figure 1 – Special Agent and Field Special Agent Staffing at the
           End of Each Fiscal Year ......................................................................Page 23
Figure 2 – Special Agent Direct Investigative Time Expended Each
           Fiscal Year ...........................................................................................Page 23
Figure 3 – Percentage of Direct Investigative Time Spent on Legal Source
           and Tax-Related Investigations Each Fiscal Year ...............................Page 24
Figure 4 – Number of Subject Investigations Initiated and the Number
           Initiated per Field Special Agent Each Fiscal Year .............................Page 24
Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year for a
           Tax-Related or Nontax-Related Violation and the Percentage
           That Is Tax-Related..............................................................................Page 25
Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by
           Compliance Strategy Program and the Percentage That Is
           Legal Source Tax Crimes.....................................................................Page 25
Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year by
           Principle U.S.C. Title...........................................................................Page 26
Figure 8 – Number of Subject Investigations Initiated Each Fiscal Year by
           Source of the Allegation or Information..............................................Page 26
Figure 9 – Number of Fraud Referrals Received and the Percentage Accepted
           Each Fiscal Year ..................................................................................Page 27
Figure 10 – Number of Open Subject Investigations and the Total of
            All Investigations at the End of Each Fiscal Year and the Number
            per Nonsupervisory Special Agent in Field Offices...........................Page 27
Figure 11 – Number of All Types of Investigations Open in Various Stages at
            the End of Each Fiscal Year ...............................................................Page 28
Figure 12 – Number of Open Subject Investigations Each Fiscal Year for
            a Tax-Related or Nontax-Related Violation and the Percentage
            That Is Tax-Related ............................................................................Page 28

                                                                                                                        Page 20
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



Figure 13 – Number of Open Subject Investigations Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...................................................................Page 29
Figure 14 – Number of Open Subject Investigations at the End of Each
            Fiscal Year by Type of Investigation: Grand Jury or
            Nongrand Jury Investigation ..............................................................Page 29
Figure 15 – Number of Subject Investigations Discontinued or Referred for
            Prosecution Each Fiscal Year and the Percentage Referred
            for Prosecution ...................................................................................Page 30
Figure 16 – Average Elapsed Days of Subject Investigations Discontinued
            and Referred for Prosecution Each Fiscal Year .................................Page 30
Figure 17 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year for a Tax-Related or Nontax-Related Violation
            and the Percentage That Is Tax-Related.............................................Page 31
Figure 18 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Compliance Strategy Program and the
            Percentage That Is Legal Source Tax Crimes ....................................Page 31
Figure 19 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Principle U.S.C. Title........................................Page 32
Figure 20 – Number of Subject Investigations Referred for Prosecution Each
            Fiscal Year by Type of Investigation: Grand Jury or
            Nongrand Jury Investigation ..............................................................Page 32
Figure 21 – Number of Tax-Related and Nontax-Related Subject Investigations
            in the Pipeline Each Fiscal Year and the Percentage That Is
            Tax-Related ........................................................................................Page 33
Figure 22 – Number of Subject Investigations in the Pipeline Each Fiscal Year
            by Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...................................................................Page 33
Figure 23 – Number of Subjects Convicted of and Sentenced for a Crime
            Each Fiscal Year.................................................................................Page 34
Figure 24 – Number of Subjects Convicted of a Crime Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...................................................................Page 34


                                                                                                                      Page 21
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



Figure 25 – Number of Subject Investigations Initiated, Referred for
            Prosecution, Indicted, and Convicted Each Fiscal Year ....................Page 35
Figure 26 – Number of Subjects Sentenced for a Crime Each Fiscal Year
            for a Tax-Related or Nontax-Related Violation and the
            Percentage That Is Tax-Related .........................................................Page 35
Figure 27 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Compliance Strategy Program and the Percentage That Is
            Legal Source Tax Crimes ...................................................................Page 36
Figure 28 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Principle U.S.C. Title .........................................................................Page 36
Figure 29 – Average Number of Months a Subject Is Incarcerated Each
            Fiscal Year by Compliance Strategy Program ...................................Page 37
Figure 30 – Percentage of Investigations That Received Publicity Each
            Fiscal Year by Compliance Strategy Program ...................................Page 37
Figure 31 – Number of Paper and Electronic Returns Determined to Be
            Fraudulent or Potentially Fraudulent by the Criminal Investigation
            Function Questionable Refund Program ............................................Page 38
Figure 32 – Dollar Amounts of Fraudulent Refunds Identified and
            Stopped by the Criminal Investigation Function
            Questionable Refund Program. ..........................................................Page 38




                                                                                                                  Page 22
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



Figure 1: Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year.
       3,000
                                                    2,902
                                   2,822                                                      2,823
                                                                 2,800        2,796                     2,804
       2,800     2,734

                                                   2,610
       2,600
                      2,513        2,477                           2,543                                 2,511
                                                                                    2,490     2,416
       2,400


       2,200
                   FY 00         FY 01         FY 02          FY 03         FY 04           FY 05     FY 06

                                             Special Agents           Field Special Agents

     Source: The Criminal Investigation function’s (the function) analysis of staffing information.

Figure 2: Special Agent Direct Investigative Time Expended Each Fiscal Year.1
       65.0%
       64.5%
       64.0%                                                  63.7%
       63.5%                                   63.3%                                        63.3%     63.2%
       63.0%
                                                                           62.5%
       62.5%
       62.0%
       61.5%
                    60.9%
       61.0%
       60.5%                     60.2%
       60.0%
                    FY 00         FY 01        FY 02          FY 03         FY 04           FY 05     FY 06


     Source: The function’s analysis of direct investigative time information for FYs 2000 through 2002 and
     CIMIS Report INV001, Criminal Investigation Summary Statistics, for FYs 2003 through 2006.




1
  In FY 2006, the function revised its calculation formula for direct investigative time on tax and tax-related
investigations; therefore, the numbers reflected in Figures 2 and 3 may not agree with those in prior reports.
                                                                                                              Page 23
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



Figure 3: Percentage of Direct Investigative Time Spent on Legal Source and Tax-Related
Investigations Each Fiscal Year.




                                                                     %




                                                                                       %




                                                                                                   %




                                                                                                                     1%
                                                          %
                                          %
     70.0%
                          %




                                                                   .8




                                                                                     .4




                                                                                                 .0
                                                        .4




                                                                                                                   7.
                                        .0
                        .4




                                                                 64




                                                                                   64




                                                                                               65
                                                      60




                                                                                                                % 6
                                      59
                      58




     60.0%




                                                                                                %




                                                                                                              .2
                  %




                                                                                %
                                                                  %




                                                                                              .8
                                                  %
                                  %




                                                                                                            48
                .8




                                                                              .2
                                                                .4
     50.0%




                                                                                            44
                                                .9
                                .1
              41




                                                                            43
                                                              42
                                              39
                              39




     40.0%

     30.0%

     20.0%
     10.0%

       0.0%
                 FY 00           FY 01           FY 02            FY 03         FY 04              FY 05           FY 06

                                                       Legal Source      Tax-Related

    Source: The function’s BPR reports for FYs 2000 through 2005 and the function’s analysis of the CIMIS
    for FY 2006.

Figure 4: Number of Subject Investigations Initiated and the Number Initiated per Field
Special Agent Each Fiscal Year.
                                                                  1




                                                                                               9
                                                  6




                                                                               7




                                                                                                               7
                                                                00




                                                                                             26


     4,500                                                                                                                3.00
                                                90




                                                                             91




                                                                                                             90
                                                              4,




                                                                                           4,
                                              3,




                                                                           3,




                                                                                                           3,
                   2




     4,000
                                  4
                 37




                                28




                                                                                                                          2.50
               3,




                              3,




     3,500
     3,000                                                                                                                2.00
     2,500
                                                                                           1.93            1.71           1.50
     2,000                                    1.65             1.74        1.74
                1.51           1.48
     1,500                                                                                                                1.00
     1,000
                                                                                                                          0.50
       500
         0                                                                                                                0.00
                FY 00          FY 01          FY 02           FY 03        FY 04           FY 05           FY 06

                                 Subject Investigations Initiated          Initiated per Field Agent

    Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005; CIMIS Report INV002, Summary
    by Program Area, for FY 2006 investigations initiated; and our analysis based on the number of field agents
    provided by the function.




                                                                                                                            Page 24
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2006



Figure 5: Number of Subject Investigations Initiated Each Fiscal Year for a Tax-Related
or Nontax-Related Violation and the Percentage That Is Tax-Related.




                                                                                                      1
     3,000                                                                                                              100.0%




                                                                                                    63
                                                      8




                                                                      2




                                                                                                                    5
                                                    46




                                                                                                  2,
                                                                    45




                                                                                                                  44
                                                                                                                        90.0%



                                                  2,




                                                                  2,




                                                                                                                2,
                                                                                      4
                                                                                    16
     2,500                                                                                                              80.0%




                                                                                  2,
                                     4
                     6




                                   85
                   78




                                                                                                                        70.0%
                                 1,



     2,000                                                63.2%                                          61.6%
                 1,




                                          56.5%                            61.3%          55.2%                   62.6%
                         53.0%                                                                                          60.0%
     1,500                                                                                                              50.0%
                                                                                          53              38
                           86                                            49            1,7             ,6            2  40.0%
                        1,5                30               38        1,5                             1             6
     1,000
                                        1,4              1,4                                                     1,4    30.0%
          500                                                                                                           20.0%
                                                                                                                        10.0%
           0                                                                                                            0.0%
                    FY 00          FY 01              FY 02         FY 03           FY 04           FY 05      FY 06

                                        Tax-Related              Nontax-Related             % Tax-Related

    Source: The function’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002, Summary
    by Program Area, for FY 2006.

Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
  1,800                                                                                        3                      86   100.0%
                                                                                            ,69     32             1,6
                                                 54               06 35                 37 1     1,6
  1,600                                       1,5        85    1,5 1,5                ,5                24                 90.0%
                                                      1,4                         70 1               1,5
  1,400        54                    13                                        1,3                                         80.0%
            1,2                   1,3
                                                                                                                           70.0%
  1,200             09 109 ,020                                                           10
                 1,0 1,   1
                                          1                                0           1,0              4                  60.0%
  1,000                                 95                 7             96                           94
                                                         86
                                                                                                                     7     50.0%
    800                                                                                                            69
                                                                                                                        40.0%
    600             37.2%                             39.8%         37.6%                           39.7%         39.0% 30.0%
                                   31.1%                                             35.0%
    400                                                                                                                    20.0%
    200                                                                                                                    10.0%
      0                                                                                                                    0.0%
                FY 00           FY 01            FY 02           FY 03           FY 04         FY 05           FY 06

                    Legal Source                Illegal Source            Narcotics-Related               % Legal Source


Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005 and CIMIS Report INV002,
Summary by Program Area, for FY 2006.




                                                                                                                                    Page 25
                   Statistical Portrayal of the Criminal Investigation Function’s
                     Enforcement Activities From Fiscal Year 2000 Through
                                          Fiscal Year 2006



Figure 7: Number of Subject Investigations Initiated Each Fiscal Year by Principle
U.S.C. Title.
     2,500
                                                                        2,199        2,141
                1,922                    1,911            2,004                                    1,996
     2,000                  1,700                                                       1,975
                                               1,847        1,875                                   1,781
                                                                            1,602
     1,500                       1,482
                   1,360
     1,000

       500
                   90          102             148            122          116          153         130
         0
                FY 00       FY 01        FY 02            FY 03         FY 04        FY 05       FY 06

                                          Title 18          Title 26      Title 31

    Source: CIMIS Report 11, Program Summary Analysis, for FYs 2000 through 2005 and the function’s
    analysis of the CIMIS for FY 2006.

Figure 8: Number of Subject Investigations Initiated Each Fiscal Year by Source of the
Allegation or Information. The IRS sources include fraud referrals from the Compliance
offices and investigations developed by the Fraud Detection Centers and Lead Development
Centers.
     2,500
                   2,144       2,064      2,016
                                                              2,191        2,286        2,267
     2,000                                                                                          2,085
                                                                                        1,547
     1,500                                      1,334                    1,179
                                                                                                    1,374
     1,000                                                      1,266
                    812
                                809
       500                                                                                               448
                    416         411            556            544          452          455
         0
                FY 00       FY 01        FY 02            FY 03         FY 04        FY 05       FY06


              U.S. Attorney & Other Agencies           Internal Revenue Service       Public and Other

    Source: Our analysis of the CIMIS; CIMIS Report 11, Program Summary Analysis, for FYs 2000
    through 2005; and the function’s analysis of the CIMIS for FY 2006.




                                                                                                           Page 26
                          Statistical Portrayal of the Criminal Investigation Function’s
                            Enforcement Activities From Fiscal Year 2000 Through
                                                 Fiscal Year 2006



Figure 9: Number of Fraud Referrals Received and the Percentage Accepted Each Fiscal
Year.
       700                                                                                                                     100.0%




                                                                                                  5




                                                                                                                  3
                                                                                                62




                                                                                                                60
                                                                  9
                                                                55
       600




                                                                                 0
                                                   6




                                                                               53
                                                 52
                                                                                                                               80.0%
                                    6
                                  48
                    6




       500
                  43




                                                                                                 68.8%           71.5%
       400                                                                                                                     60.0%
                                                  62.9%          61.2%          58.0%
                   50.8%            53.8%
       300                                                                                                                     40.0%
       200
                                                                                                                               20.0%
       100

          0                                                                                                                    0.0%
                  FY 00           FY 01          FY 02          FY 03          FY 04            FY 05           FY 06
                                             Fraud Referrals Received            % Accepted

    Source: The function’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV001, Criminal
    Investigation Summary Statistics, for FY 2006.

Figure 10: Number of Open Subject Investigations and the Total of All Investigations at
the End of Each Fiscal Year and the Number per Nonsupervisory Special Agent in Field
Offices.2
                         63




       15,000                                                                                                                   12.00
                                                                                                           67
                                                                       01




                                                                                          18




                                                                                                                        02
                       ,0




                                          72




                                                           34




                                                                                                         ,4
                     12




                                                                     ,1




                                                                                        ,1




                                                                                                                      ,9
                                                                                                       11
                                        ,5




                                                         ,5




                                                                                                                                10.00
                                                                   11




                                                                                      11




                                                                                                                    10
       12,000
                                      10




                                                       10




                                                                                                                                8.00
        9,000
                          5.41                                                                          5.19                    6.00
                                          4.75       5 4.46         5 4.82             4.94                         4
                                                                                                                        4.77
        6,000
                    74
                      9               2            39             61              6                3              03
                  3,                70           4,             4,              13               28             4,              4.00
                                  3,                                          4,               4,
        3,000                                                                                                                   2.00
                                                                                                                        1.76
                          1.68            1.66          1.86          2.00              1.84             1.94
              0                                                                                                                 0.00
                   FY 00            FY 01          FY 02          FY 03           FY 04           FY 05            FY 06

                              Subject Investigations                         Total Inventory
                              Average Subject Inventory per Agent            Average Total Inventory per Agent

    Source: The function’s analysis of the CIMIS.




2
  During FY 2006, the function revised its formula for determining total inventory. The new formula does not
include subject seizure information or open primary investigations if they had a corresponding subject investigation.
As a result, the inventory numbers reported in Figures 10 and 11 for the prior fiscal years changed and may not
agree with those in our prior reports. The total inventory includes primary investigations not yet elevated to a
subject investigation, open subject investigations currently being worked in the field office, and subject
investigations that have been referred for prosecution (pipeline).
                                                                                                                                  Page 27
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2006



Figure 11: Number of All Types of Investigations Open in Various Stages at the End of
Each Fiscal Year.
     14,000
     12,000
     10,000      3,484
                                   2,992           2,733          3,072             3,633             3,846
                                                                                                                      3,943
      8,000
                 3,749
      6,000                        3,702           4,395          4,615                               4,283
                                                                                    4,136                             4,034
      4,000
      2,000      4,830             3,878           3,406          3,414             3,349             3,338           2,925
          0
                 FY 00             FY 01           FY 02          FY 03             FY 04             FY 05           FY 06


                      Primary Investigations               Subject Investigations                Pipeline Inventory


   Source: The function’s analysis of the CIMIS.

Figure 12: Number of Open Subject Investigations Each Fiscal Year for a Tax-Related or
Nontax Related Violation and the Percentage That Is Tax-Related.
     4,000                                                                                                            100.0%
                                               7




                                                           8
                                             33




                                                         45




                                                                                            8




                                                                                                           4
                                                                                          25
                                                                           0




                                                                                                         13
                                                                                                                      90.0%
                                           3,




                                                       3,




     3,500
                                                                         14




                                                                                        3,




                                                                                                       3,
                                                                       3,
                               9
                  9




                             72




                                                                                                                     80.0%
                62




     3,000
                           2,
              2,




                                                   75.9%         74.9%         75.9%            76.1%          77.7% 70.0%
                                     73.7%
     2,500            70.1%
                                                                                                                      60.0%
     2,000
                                                                                                                      50.0%
                                                                   7
                      0




                                                                 15
                                                   8




                                                                                                  5
                    12




     1,500
                                                 05




                                                                                                02
                                                               1,




                                                                              6




                                                                                                                      40.0%
                                  3
                  1,




                                                                                                                0
                                               1,




                                                                            99




                                                                                              1,
                                97




                                                                                                              90




     1,000                                                                                                            30.0%
       500                                                                                                            20.0%
          0                                                                                                           10.0%
                FY 00         FY 01          FY 02          FY 03         FY 04             FY 05        FY 06

                                Tax-Related            Nontax-Related               % Tax-Related

    Source: The function’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002, Summary by
    Program Area, for FY 2006.




                                                                                                                              Page 28
                       Statistical Portrayal of the Criminal Investigation Function’s
                         Enforcement Activities From Fiscal Year 2000 Through
                                              Fiscal Year 2006



Figure 13: Number of Open Subject Investigations Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
       2,500                                                                                                                           80.0%




                                                                      0




                                                                                                         1
                                                    2




                                                                    17




                                                                                                       12




                                                                                                                           6
                                                  10




                                                                                       0




                                                                                                                         00
                                                                                     05
                                                                 2,
                                                                                                                                       70.0%




                                                                                                    2,
                                               2,




                                                                                                                      2,
                                                                                   2,
                   9




       2,000




                                                                            3
                 83




                                                                                                            8
                                                                          78




                                                                                                                               4
                                                                                                          68
                                    1

                                                                                                                                       60.0%
               1,




                                                                                                                             66
                                                        5
                                  68




                                                                       1,
                                                      69




                                                                                                       1,
                                                                                              4




                                                                                                                          1,
                               1,




                                                                                            54
                                                   1,
                   49.1%
                                       2




                                                                                         1,
                                     40



       1,500                                                                                                                           50.0%
                                                                                                             49.5%             49.7%
                                  1,




                                                         47.8%            47.0%             49.6%
                       1




                                         45.4%                                                                                         40.0%
                     11
                  1,




       1,000                                                                                                                           30.0%
                           9




                                                                             2
                        79




                                           9




                                                                          66
                                                           8
                                        61




                                                                                              2
                                                        59




                                                                                           54




                                                                                                                4
                                                                                                                                       20.0%




                                                                                                             47




                                                                                                                                  4
        500




                                                                                                                               36
                                                                                                                                       10.0%

           0                                                                                                                           0.0%
                 FY 00           FY 01            FY 02             FY 03           FY 04             FY 05              FY 06

                                    Legal           Illegal             Narcotics-Related              % Legal

    Source: The function’s National Criminal Investigation Statistics for FYs 2000 through 2005 and CIMIS
    Report INV002, Summary by Program Area, for FY 2006.

Figure 14: Number of Open Subject Investigations at the End of Each Fiscal Year by Type
of Investigation: Grand Jury or Nongrand Jury Investigation.
     3,500

     3,000                                                                       2,863
                                                            2,634                                 2,566                 2,621
                       2,377             2,334                                                                                          2,378
     2,500

     2,000

     1,500                                                     1,761             1,751                                  1,662            1,656
                                                                                                  1,570
                       1,371              1,367
     1,000

       500

          0
                 FY 00            FY 01                 FY 02             FY 03               FY 04                 FY 05             FY 06

                                                          Grand Jury                Nongrand Jury

    Source: CIMIS Report 11, Program Summary Analysis, for FYs 2000 through 2005 and the function’s
    analysis of the CIMIS for FY 2006.




                                                                                                                                              Page 29
                        Statistical Portrayal of the Criminal Investigation Function’s
                          Enforcement Activities From Fiscal Year 2000 Through
                                               Fiscal Year 2006



Figure 15: Number of Subject Investigations Discontinued or Referred for Prosecution
Each Fiscal Year and the Percentage Referred for Prosecution.
       3,500                                                                                                      100.0%
                                                                           3,037         2,859                    90.0%
       3,000                                                                                             2,720
                                                               2,541                                              80.0%
                    2,434
       2,500                        2,335        2,133                                                            70.0%
                69.6%       69.9%                        67.5%         69.2%       69.7%
                                        66.6%                                                     65.4%           60.0%
       2,000
                                                                                                                  50.0%
       1,500                                                       1,350                          1,437
                                                       1,225                       1,245                          40.0%
                1,065      1,005       1,068
       1,000                                                                                                      30.0%
                                                                                                                  20.0%
         500
                                                                                                                  10.0%
            0                                                                                                     0.0%
                  FY 00       FY 01           FY 02        FY 03         FY 04       FY 05          FY 06

                    Discontinued            Referred for Prosecution             % Referred for Prosecution

     Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2004; CIMIS Report 11, Program
     Summary Analysis, for FY 2005; and CIMIS Report INV001, Criminal Investigation Summary Statistics,
     for FY 2006.

Figure 16: Average Elapsed Days of Subject Investigations Discontinued and Referred for
Prosecution Each Fiscal Year.3
       550.0
                    483.2            505.7
                                                      492.1
       500.0
                                                                                   461.4          436.8          424.5
       450.0                                                       426.8

       400.0
                                                      413.2
                                                                       383.8                        386.6          383.8
       350.0                                                                        367.8
                                     362.4
       300.0
                   315.7
       250.0
       200.0
                   FY 00           FY 01         FY 02           FY 03           FY 04           FY 05           FY 06

                                           Discontinued          Prosecution Recommendations

     Source: The function’s analysis of the CIMIS for FYs 2000 through 2006.




3
 The function revised its calculation formula in FY 2006 to include discontinued investigations that had been closed
due to lack of resources. As a result, the numbers reported in Figure 16 for prior fiscal years may have changed and
may not agree with those in our prior reports.
                                                                                                                         Page 30
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2006



Figure 17: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
for a Tax-Related or Nontax-Related Violation and the Percentage That Is Tax-Related.
     2,000                                                                                                                              100.0%
     1,800                                                                                                                              90.0%
                                                                                           4        73
     1,600                                                                               46      1,5         45
                                                                                                               4      5        1        80.0%
                            89                                          35
                                                                          9            1,                 1,        40       35 36
                                                                                                                                  9
                         1,3                  32
                                                6
                                                                      1,                                         1,        1, 1,
     1,400                                  1,                                   82                                                     70.0%
                  5                  9                  9       04            1,1
     1,200      04                 00                 02     1,1                                                                        60.0%
              1,                 1,                 1,
     1,000                                                                 53.5%                                                        50.0%
                                                            48.2%                           48.2%              50.9%            49.7%
       800            42.9%              43.2%                                                                                          40.0%
       600                                                                                                                              30.0%
       400                                                                                                                              20.0%
       200                                                                                                                              10.0%
         0                                                                                                                              0.0%
               FY 00              FY 01             FY 02              FY 03            FY 04             FY 05             FY 06

                                          Tax-Related               Nontax-Related              % Tax-Related

    Source: The function’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002, Summary by
    Program Area, for FY 2006.

Figure 18: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.
    1,400                                                                                           9                               5   100.0%
                                                                                                  28                              26
                                                                                                1,                 1            1,      90.0%
                                                                                                                 14
    1,200
                                                                         03
                                                                           4                                   1,
                                      3                                1,                                                               80.0%
                                    95
                                                                                                           1




    1,000                   6
                                                                                                         95




                          92                             4                                        9                                     70.0%
                                                       86
                                                                                        9




                                             7                                                  87
                                                                                      86




                     9                     84
                                                                       3




                                                                                                                            4




                   79
                                                                     82




                                                                                                                          83




                                                                                                                    7
      800                                                                       4                                 76                    60.0%
               9




                                                              9               68
             70




                                                            65                                                                    62
                                                                                                                                    1
                                                                                                                                        50.0%
                                                   0
                                                 61
                              5




      600
                            53




                                                                                                                                        40.0%

      400                                                                     32.4%                             33.3%                   30.0%
                      29.1%                                 28.6%                              28.6%                            30.7%
                                         22.9%                                                                                          20.0%
      200
                                                                                                                                        10.0%
        0                                                                                                                               0.0%
               FY 00              FY 01             FY 02              FY 03            FY 04              FY 05            FY 06

                   Legal Source                   Illegal Source                Narcotics-Related                   % Legal Source

    Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005 and CIMIS Report INV002,
    Summary by Program Area, for FY 2006.




                                                                                                                                               Page 31
                   Statistical Portrayal of the Criminal Investigation Function’s
                     Enforcement Activities From Fiscal Year 2000 Through
                                          Fiscal Year 2006



Figure 19: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Principle U.S.C. Title.
     2,500

                                                                     1,922        1,779
     2,000
                            1,539                    1,594                                  1,694
                1,573
     1,500                               1,289

                                                                     1,002        991       940
                 794                      772           876
     1,000
                             728
       500
                 67           68          72             71           113          89       86
         0
                FY 00       FY 01        FY 02       FY 03           FY 04        FY 05    FY 06

                                          Title 18       Title 26      Title 31

    Source: CIMIS Report 11, Program Summary Analysis, for FYs 2000 through 2005 and the function’s
    analysis of the CIMIS for FY 2006.

Figure 20: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Type of Investigation: Grand Jury or Nongrand Jury Investigation.
     3,000
                                                                     2,449
                                                                                  2,293
     2,500
                1,990       1,955                       2,051                                2,147
     2,000                               1,700

     1,500

     1,000
                 444                      433           490          588          566       573
                             380
       500

         0
                FY 00       FY 01        FY 02       FY 03          FY 04         FY 05    FY 06

                                           Grand Jury           Nongrand Jury

    Source: CIMIS Report 11, Program Summary Analysis, for FYs 2000 through 2005 and the function’s
    analysis of the CIMIS for FY 2006.




                                                                                                    Page 32
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



Figure 21: Number of Tax-Related and Nontax-Related Subject Investigations in the
Pipeline Each Fiscal Year and the Percentage That Is Tax-Related.
     2,500                                                                                                                       100.0%




                                                                                                                     5
                                                                                                     0




                                                                                                                   09
                                                                                                   05
                                                                                                                                 90.0%




                                                                                                                 2,
                                                                                                 2,
                                                                                    7




                                                                                                             6




                                                                                                                         8
                                                                                  88
                 8




                                                                                                           79




                                                                                                                       84
     2,000                                                                                                                       80.0%




                                                                                            6
               80




                                                                                          74
                                                                                1,
                         6




                                                                    0




                                                                                                         1,




                                                                                                                     1,
             1,


                       67




                                                                  63




                                                                                        1,
                                          4                                                                                      70.0%
                     1,



                                 8




                                                                            2
                                                                1,
                                        51
                               47




                                                                          44
                                                   6

                                                   7
                                                 34
                                      1,




                                                38
                             1,




                                                                        1,
     1,500                                    1,                                                                                 60.0%

                                              1,
                                                                                                                                 50.0%
                                                                                                     53.3%               53.1%
     1,000      51.9%                                              53.1%            51.9%                                        40.0%
                                   49.4%            49.2%
                                                                                                                                 30.0%
       500                                                                                                                       20.0%
                                                                                                                                 10.0%
         0                                                                                                                       0.0%
               FY 00           FY 01           FY 02             FY 03            FY 04            FY 05            FY 06

                                Tax-Related                   Nontax-Related                    % Tax-Related

    Source: The function’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002, Summary by
    Program Area, for FY 2006.

Figure 22: Number of Subject Investigations in the Pipeline Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.
     2,000                                                                                                                        80.0%

                                                                                                                             3
                                                                                                                           68
     1,750                                                                                                                        70.0%
                                                                                                             5



                                                                                                                         1,
                                                                                                           55
                                                                                            3



                                                                                                         1,
                                                                                          47




                                                                                                                     1
                                                                                                     1




                                                                                                                   37




     1,500                                                                                                                        60.0%
                                                                                        1,


                                                                                                   35
                       4




                                                                                                                 1,
                                                                            9
                    28




                                                                                                 1,
                     8




                                                                         20
                                       0




                                                                          7
                  14




                                     11
                  1,




                                                                      17
                                                                        0




     1,250
                                                        8




                                                                                                                                  50.0%
                                                                       1,
                 2




                                                                     08
                                                      02
                1,




                                   1,
               05




                                                                    1,
                                                                   1,
                                                    1,
             1,




                                         7
                               5




                                                                                                            0




                                                                                                                            9
                                                                                           1
                                       94
                             93




                                                                                                          94




                                                                                                                          88




     1,000
                                                                                         95




                                                                                                                                  40.0%
                                                6


                                                        9




                                                                 5
                                              86


                                                      83




                                                               81




       750           36.9%                                                                               35.1%                    30.0%
                                     31.3%           31.7%         35.2%                33.3%                            34.8%
       500                                                                                                                        20.0%

       250                                                                                                                        10.0%

         0                                                                                                                        0.0%
               FY 00           FY 01            FY 02            FY 03             FY 04            FY 05            FY 06

                                   Legal            Illegal             Narcotics-Related                  Totals

    Source: The function’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002, Summary by
    Program Area, for FY 2006.




                                                                                                                                        Page 33
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2006



Figure 23: Number of Subjects Convicted of and Sentenced for a Crime Each Fiscal Year.
     2,600
                     2,475
     2,400
                   2,249           2,251
     2,200                                               2,201                                             2,151
                                 2,238
                                                                                                                            2,019
                                                                                         2,008
     2,000                                                                                               2,095
                                                     1,926                                                                  2,020
                                                                     1,824
     1,800
                                                                     1,768               1,777
     1,600
               FY 00             FY 01             FY 02           FY 03             FY 04               FY 05            FY 06

                                                         Convicted           Sentenced

    Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005 and CIMIS Report INV002,
    Summary by Program Area, for FY 2006.

Figure 24: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
    1,200                                                                                                                  100.0%
                                                                                                                           90.0%
                               7




                                                                                                                   8
                             93




                                                                                                                 93
                                                                                                4

    1,000                                                                                                                  80.0%
                                                                                              89
                                                                               7
                                                                             83




                                                                                                                           70.0%
                                               8
                  5
                  6




                                                               0
                                             78
                78




                                     6
               75




                                                             76




               8
                                   76




      800    70                                                                                5
                                                                                                                           60.0%
                                                                                             65
                                                     6




                                                                                                              2            50.0%
                                                                                                     2
                                                                                     3
                                                   61




                                                                             8
                                                                                                            59
                                                                     5




                                                                                                   60




                             8
                                                                                   59




                                             2                             57
                                                                   58




      600                  54              52                9                                                       9     40.0%
                                                           47
                                                                                                                   48

                                                                                                                           30.0%
      400          31.5%                         27.1%                           28.8%             30.5%          29.3%    20.0%
                                 24.3%                           26.3%
                                                                                                                           10.0%
      200                                                                                                                  0.0%
              FY 00          FY 01          FY 02            FY 03           FY 04           FY 05           FY 06

                    Legal Source           Illegal Source            Narcotics-Related               % Legal Source

    Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005 and CIMIS Report INV002,
    Summary by Program Area, for FY 2006.




                                                                                                                                  Page 34
                       Statistical Portrayal of the Criminal Investigation Function’s
                         Enforcement Activities From Fiscal Year 2000 Through
                                              Fiscal Year 2006



Figure 25: Number of Subject Investigations Initiated, Referred for Prosecution, Indicted,
and Convicted Each Fiscal Year. Because actions on a specific investigation may cross fiscal
years, the data shown in investigations initiated may not always represent the same universe of
investigations as that shown in other actions within the same fiscal year.
      4,500
                                                                                                        4,269
      4,200
                                                       3,906                                                         3,907
      3,900                                                               4,001        3,917
      3,600
                       3,372
      3,300
                                         3,284                                       3,037         2,859
      3,000
                                                                    2,541                                           2,720
      2,700
                2,434                 2,335                                            2,489            2,406
      2,400              2,469                                                                                       2,319
                                          2,292     2,133                 2,128
      2,100     2,249            2,251                      1,924
                                                                                     2,008         2,151          2,019
      1,800
                                                     1,926          1,824
      1,500
      1,200
                  FY 00               FY 01         FY 02           FY 03            FY 04         FY 05           FY 06
              Investigations Initiated            Referred for Prosecution                Indictments           Convictions

   Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005 and CIMIS Report INV001,
   Criminal Investigation Summary Statistics, for FY 2006.

Figure 26: Number of Subjects Sentenced for a Crime Each Fiscal Year for a Tax-Related
or Nontax-Related Violation and the Percentage That Is Tax-Related..
      1,600                                                                                                     100.0%
                                          2
                                        33
                            1




                                                                                                                90.0%
                          34




      1,400
                                      1,
                   4




                                                     8
                        1,
                 13




                                                                                              0
                                                   17




                                                                                                                80.0%
                                                                                            08
                                                   3




                                                                                                          4
               1,




                                                 1,
                                                02




                                                                                                       02




      1,200
                                                                                           5
                                                                                          1,



                                                                                                        6
                                                                                         01




                                                                                                                70.0%
                                                                                                     99
                                              1,




                                                                                                     1,
                                                                                2
                                  6




                                                                      3




                                                                                       1,
                                                                              92
                                90




                                                                    93



                                                                              5




      1,000
                                                               5




                                                                            85




                                                                                                                60.0%
                                                             83




       800                                                                                                49.3% 50.0%
                                                                                                 48.4%
       600          45.8%                           46.5%          47.2%          48.1%                         40.0%
                                      40.5%                                                                     30.0%
       400
                                                                                                                20.0%
       200                                                                                                      10.0%
         0                                                                                                      0.0%
                 FY 00           FY 01         FY 02           FY 03         FY 04           FY 05     FY 06

                                      Tax-Related           Nontax-Related         % Tax-Related

    Source: The function’s enforcement statistics derived from the IRS Internet web site for FYs 2000 through
    2005 and CIMIS Report INV002, Summary by Program Area, for FY 2006.




                                                                                                                           Page 35
                    Statistical Portrayal of the Criminal Investigation Function’s
                      Enforcement Activities From Fiscal Year 2000 Through
                                           Fiscal Year 2006



Figure 27: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
     1,000                                                                                                                    100.0%




                                                                                                      0
                                                8




                                                                                                    90
                                              88
                               9




                                                                                                                      1
                                                                                                                              90.0%
                6


                             85
                9




                                                                                                                    86
               0
              84




                                       1
             81
             81




                                     83




                                                                                   0
       800                                                                                                                    80.0%




                                                                  6
                                                      1




                                                                                 75
                                                                72
                                                    72
                                                                                                                              70.0%




                                                                                                                4
                                                                                                5




                                                                                                              62
                                                                                              61
                                             2




                                                                        8
                                           59




                                                                                                         0
                                                                      56




                                                                                                       58
                            8




       600                                                                                                                    60.0%




                                                                                       0




                                                                                                                        5
                          54




                                                                                     52




                                                                                                                      53
                                                                              7
                                                                            50
                                                            4
                                                          47
                                                                                                                              50.0%
       400                                                                                                                    40.0%
                                                                                                                              30.0%
                33.1%                                                                                29.4%           30.9%
       200                                       26.9%            26.8%             28.5%                                     20.0%
                                24.5%
                                                                                                                              10.0%
         0                                                                                                                    0.0%
              FY 00          FY 01           FY 02           FY 03               FY 04           FY 05             FY 06

                      Legal Source          Illegal Source            Narcotics-Related              % Legal Source

    Source: The IRS Data Book, Publication 55B, for FYs 2000 through 2005 and CIMIS Report INV002,
    Summary by Program Area, for FY 2006.

Figure 28: Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle
U.S.C. Title.
     1,400
                    1,342             1,324                                                                       1,212        1,194
     1,200                                                1,236
                                                                            1,018
     1,000                                                                                     1,040

                       868
       800
                                                          769
                                                                                                                                  707
                                           666                                                                     704
       600
                                                                             594                 573
       400

       200          194              168
                                                      117                  111           91                 107              76
               71               80               79                   45               73                  72                     43
         0
                FY 00           FY 01            FY 02                FY 03              FY 04             FY 05            FY 06

                                           Title 18          Title 26               Title 31              Other

   Source: CIMIS Report 11, Program Summary Analysis, for FYs 2000 through 2005 and the function’s
   analysis of the CIMIS for FY 2006.




                                                                                                                                       Page 36
                        Statistical Portrayal of the Criminal Investigation Function’s
                          Enforcement Activities From Fiscal Year 2000 Through
                                               Fiscal Year 2006



Figure 29: Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
Compliance Strategy Program. Incarceration may include prison time, home confinement,
electronic monitoring, or a combination thereof.
     100                                                                                                                               94
      90                               79                                    77                                     82
                        76                               81
      80                                                                                         72
      70
      60
      50                                                                                                                          37
      40                          31                33                  32                  32                 34
                   27
      30                                                                               18                 17                 17
              15             13                15                  16
      20
      10
       0
               FY 00          FY 01             FY 02                FY 03              FY 04              FY 05              FY 06

                                       Legal Source           Illegal Source          Narcotics-Related

    Source: The function’s analysis of the CIMIS for FYs 2000 through 2005 and CIMIS Report INV002,
    Summary by Program Area, for FY 2006.

Figure 30: Percentage of Investigations That Received Publicity Each Fiscal Year by
Compliance Strategy Program.
     100.0%




                                                                                                                                        %
                                                                                                                                %

                                                                                                                                      .1
      90.0%                                                                                                    %


                                                                                                                              .3
                                                                                                               %




                                                                                                                                    84
                                                                                             %




                                                                                                             .8

                                                                                                                            81
                                                                                                            .6
                                                                          %
                                                             %




                                                                                           .1




                                                                                                          81
                                                                                          %




                                                                                                          77
                                                                        .7
                                                           .1




                                                                                        78




      80.0%
                                                                       %




                                                                                        .0
                                                                      77
                                                         76
                                            %




                                                                     .9




                                                                                      71
                                           %
                                          .5




                                                                   67
                                         .8
                                        64




      70.0%
                        %




                                                                                                                        %
                                                              %
                                       62
                                      %




                                                                                                                                           %
                      .5




                                                                                                                      .7
                                                                                  %
                                                            .0




                                                                                                      %
                                    .6




                                                                                                                                         .5
                    59




                                                                                                                    59
                                                                                .0
                   %




                                                          57




                                                                                                    .8
                                  54




      60.0%                                                                                                                            55
                  %




                                                                              56
                 .6




                                                                                                  55
                                 %
                .1
               49




                               .1
              49




                             48




      50.0%
      40.0%
      30.0%
      20.0%
      10.0%
       0.0%
                   FY 00          FY 01             FY 02               FY 03               FY 04              FY 05           FY 06

                                            Legal Source         Illegal Source       Narcotics-Related

   Source: The function’s BPR reports.




                                                                                                                                            Page 37
                        Statistical Portrayal of the Criminal Investigation Function’s
                          Enforcement Activities From Fiscal Year 2000 Through
                                               Fiscal Year 2006



Figure 31: Number of Paper and Electronic Returns Determined to Be Fraudulent or
Potentially Fraudulent by the Criminal Investigation Function Questionable Refund
Program.4 PY refers to processing year.
       140,000

       120,000

       100,000

         80,000

         60,000

         40,000

         20,000

             0
                       PY 00       PY 01        PY 02            PY 03            PY 04           PY 05     PY 06

                                      Paper Returns     Electronic Returns     Total Returns Detected

    Source: The function’s Office of Refund Crimes.

Figure 32: Dollar Amounts of Fraudulent Refunds Identified and Stopped by the Criminal
Investigation Function Questionable Refund Program. Processing Year 2000 includes a
refund fraud scheme that involved 1,672 tax returns with over $215 million in false refunds
claimed and more than $214 million stopped. Processing Year 2004 figures do not include
2 returns that claimed refunds totaling more than $1.8 billion.
       $900,000,000
       $800,000,000
       $700,000,000
       $600,000,000
       $500,000,000
       $400,000,000
       $300,000,000
       $200,000,000
       $100,000,000
                  $0
                           PY 00       PY 01           PY 02         PY 03            PY 04         PY 05    PY 06

                                                      Refunds Claimed        Refunds Stopped

    Source: The function’s Office of Refund Crimes.


4
  Due to the unavailability of the Electronic Fraud Detection System in Processing Year 2006, function management
advised us they were unable to calculate the electronic and paper filed returns for Processing Year 2006. As a result,
the chart presentation for Figure 31 changed from those shown in our prior reports to include just total returns
detected.
                                                                                                                    Page 38
       Statistical Portrayal of the Criminal Investigation Function’s
         Enforcement Activities From Fiscal Year 2000 Through
                              Fiscal Year 2006



                                                         Appendix VII

Management’s Response to the Discussion Draft
                  Report




                                                                 Page 39
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2006




                                                          Page 40
